16 of the 82 contracts, which account for $893,753 or 47 percent of the remaining
balances on the 82 contracts. In addition, we included three contracts outside our initial
sample that had nearly $300,000 in unexpended balances. OFEO has agreed to examine
the remaining 66 contracts and take appropriate close-out actions.

ANALYSES AND RECOMMENDATIONS

Our review identified $890,965 on 14 of the 16 facilities contracts that no longer represent
legitimate financial liabilities. Between October 2004 and May 2005, OFEO undertook a
major effort to review unliquidated contract balances and identified all 14 contracts for
closure. OFEO also initiated a close-out action for one contract with a balance of
$751,000. However, as of August 4, 2005, no funds had been deobligated for any of the 14
contracts. In addition, we identified three contracts outside our sample that were
designated for close-out in May 2005, but still had $299,333 in unexpended balances,
bringing the total that can be deobligated to $1.2 million.4 This amount, while a small
percentage of the $126 million appropriated for facilities capital in FY 2005, may be
reapplied to other projects. The following table shows the unliquidated obligations we
reviewed, listed by contract number.

                            Unliquidated and Unneeded Obligations Reviewed
                                                                  Unliquidated   Unneeded
                   Contractor Names             Contract Number   Obligations    Obligation
                                                                                     s
        Federal Highway Administration            736KC10483      $ 751,053      $ 751,053
        Ehrenkrantz & Eckstut Architects          836KW10301         13,081         13,081
        E & V Constructora                        936KC10631            500             500
        Architrave pc Architects                  936KW10319            625             625
        Engineering Applications Consultants      936KW10551          1,432           1,432
        Einhorn Yaffee Prescott Architects        936KW10622          6,001           6,001
        Fundaciones, S.A.                         036KC10116          1,825               0
        Hayes, Seay, Mattern & Mattern            036KW10304          3,520           3,520
        Einhorn Yaffee Prescott Architects        036KW10317         11,403         11,403
        Law Engineering and Environmental
          Services, Inc.                          036KW10560          19,782        19,782
        Smithgroup Midatlantic, Inc.              136KW10017          66,734        66,734
        Quinn Evans Architects                    136KW10120           4,803         4,803
        Apex Environmental, Inc.                  136KW10184         116,367       116,367
        International Builders, Inc.              136KW10500           3,142         3,142
        Smithgroup Midatlantic, Inc.              136KW10547           7,800         7,800
        Law Engineering and Environmental
          Services, Inc.                          236KW10275         179,447       179,447
        Tex/Am Construction Co, Inc               236KW10305             963             0
        Law Engineering and Environmental
          Services, Inc.                          236KW10373           2,956          2,956
        Apex Environmental, Inc.                  236KW10581           1,652          1,652
                 Total                                            $1,193,086     $1,190,298



4
    We rounded $1,190,298 up to $1.2 million.




                                                     2
If the proportion of unneeded obligated balances identified on the 19 contracts in the
table is representative of the remaining 66 contracts that OFEO is still researching, we
estimate that an additional $987,7745 of unneeded unliquidated obligations can be
deobligated and used on other projects.

Funds Sat Idle for Years

Our review showed that unneeded obligated funds were allowed to sit idle for years. The
average time that funds sat idle on the 80 contracts that had no activity for 18 months was
approximately 3 years, with unexpended balances on 13 contracts sitting idle for more
than 4 years, and balances on one contract sitting idle for over 8 years. For example:

       •     A contract with Intec Companies, Inc., awarded in 1995, has had a remaining
             balance of $28,223 for the last 8 years. At our request, OFEO is researching the
             status of unliquidated obligations on this contract.

       •     In 1997, a contract was awarded to the Federal Highway Administration for the
             rehabilitation of sidewalks along Jefferson Drive. The contract currently has a
             balance of $751,053, and no expenditures have been made in the last 5 years.
             OFEO confirmed that this contract can now be closed and has initiated close-out
             procedures with the Office of Contracting (OCon).

       •     In 1998, a contract was awarded to Ehrenkrantz Eckstut Architects for
             replacement of a greenhouse. For the last 5 years the contract has carried a
             balance of $13,081, but in May 2005, OFEO designated it for closure. As of
             August 2005, the funds had not yet been deobligated.

       •     In 2001, a contract was awarded to the Smithgroup MidAtlantic for Smithsonian
             Institution Traveling Exhibits space modifications. The contract, which has a
             remaining balance of $66,734, has had no voucher activity for the last 3 years. In
             May 2005 OFEO determined that this contract could be closed, but has not yet
             deobligated the funds.

       •     A contract was awarded in 2000 to Law Engineering and Environmental Services,
             Inc., for $19,782 to monitor lead paint removal at the National Zoological Park.
             However, no expenditures were ever made because the project was cancelled.
             OFEO designated the project for closure in May 2005, but has not deobligated the
             funds.




5
    We estimated that $987,774 or 99.8 percent ($1,190,298 / $1,193,086) of the $990,087 remaining on the 66 contracts could be
    deobligated.




                                                                   3
   •   In 2000, a contract was awarded to Einhorn Yaffe Prescott Architects for picnic
       area paving. The remaining balance on the contract is $11,403, and the last
       expenditure was recorded over 3 years ago. This contract was designated for
       closure in May 2005, but the funds remain obligated.

Greater Oversight of Unliquidated Obligations is Needed

While there may be valid reasons for large unexpended balances on facilities contracts,
OFEO did not review unliquidated balances on a regular basis to determine whether
unexpended balances exceeded estimated needs. It also did not report to OCon and the
Chief Financial Officer (CFO) whether funds should be deobligated and, if appropriate,
the contracts closed. We also found that OCon had not been contacting business units
when contractual performance periods were completed to determine whether
unliquidated obligations were still valid.

In several cases where we found that funds could be deobligated, the projects were or had
been without project managers to oversee account activity. Further, according to OFEO’s
Director for Resource Management, project managers generally oversee a combination of
100 to 200 purchase orders and contracts, which can lead to lapses in oversight. OFEO
staff also informed us that certain contracts were left open to provide contingency funds
for unforeseen conditions on other smaller projects. For example, a total of $295,800 has
been held on two contracts for several years as a contingency for abatement inspection
and hazmat monitoring services for smaller OFEO projects.

We also found that no single office within the Institution is responsible for providing
oversight of unliquidated contract balances. As set out in the draft revision to
Smithsonian Directive (SD) 305, provided to us by the Office of Planning, Management
and Budget (OPMB) in August 2005, unit heads are responsible for monitoring unit
obligations. The directive states that “unit heads are required to ensure that obligations
and expenditures are for the purposes intended in the appropriation bill and…satisfy the
bona fide need statute.” To facilitate monitoring of account balances, units were
provided ready access to obligations and commitment data when the new Enterprise
Resource Planning (ERP) financial system was deployed.

While units need to be vigilant in managing their contract balances, an annual notice by
the CFO to deobligate unliquidated contract balances would enhance Institution-wide
oversight of these funds and help ensure funds are not sitting idle. This practice would
be consistent with annual reminders the CFO issues for purchase order activity.
Currently, the CFO reminds units to deobligate unliquidated balances on purchase orders
during the third quarter of each fiscal year as part of its year-end close-out activities.
However, these reminders are directed at only 1- and 2-year federal funds and central
trust monies, and do not address no-year funds or contracts.




                                            4
By not directing units to identify unliquidated contract balances as part of its year-end
activities, the CFO may also not be getting the assurances and documentation needed to
certify in appropriations requests that obligated amounts represent valid liabilities. 6 In
making the certifications, agencies are required to review unliquidated obligations prior
to certification. Specifically, Treasury Financial Management Bulletin 2005-06 requires
that “Agencies that have not reviewed their unliquidated obligations do so before year-
end closing. This ensures agencies properly record transactions meeting the criteria of
valid obligations set forth in 31 U.S.C. 1501.”

Our review disclosed that the staffs in the CFO’s office are not validating the accuracy of
obligated balances. In addition, they could not tell us who had been delegated the
authority to certify to the accuracy of obligated amounts in appropriations requests.
Because the draft revision to SD 305 states that the CFO is responsible for “financial
reporting and financial management internal controls for the Institution,” we believe the
CFO should certify in annual appropriation requests to the President that obligated
amounts are accurate and continue to represent valid liabilities. This certification should
be based on year-end assurances from the units that they have reviewed unliquidated
contract balances and identified those funds that could be put to better use.

Clean-up of Data in Financial System is Needed

Maintaining accurate data in the ERP financial system is necessary for management to
extract meaningful reports for effective funds management. However, our review
identified potential data inaccuracies in the ERP financial system. For example, 107
facilities contracts with no funds remaining are recorded as active contracts in the ERP
system. These contracts, which are listed in Appendix B, should be reviewed to see if their
status has been accurately recorded.

We also identified 110 Smithsonian Business Venture (SBV) contracts, totaling
$25 million, which should be deleted in the ERP financial system as SBV no longer uses
this system for accounting and payment purposes. A listing of the SBV contracts can be
found in Appendix C.

RECOMMENDATIONS

To ensure that unneeded obligations are redeployed to other projects, where possible;
obligated funds are accurate and properly certified; and the ERP financial system data is
reliable, our recommendations address both the deobligation of funds identified in this
report as well as process improvements needed to ensure unliquidated balances are
regularly reviewed and annually certified as valid. Specifically, we recommend that the
Director of OFEO:

        1. Work with OCon to initiate close-out of the 17 completed contracts identified in


6
    The statute requires the Secretary to “designate officials to make the certifications, and those officials may not delegate the duty to
    make certifications.” 31 U.S.C. section 1108(c).




                                                                        5
       this report and deobligate $1.2 million to put these funds to better use.

   2. Expedite its review of the remaining 66 contracts with unliquidated obligations;
      work with OCon to close those contracts that are completed; and report to OCon,
      the CFO, and the Office of the Inspector General the associated funds that can be
      deobligated and put to better use.

We also recommend that the Director, OCon:

   3. Expedite the deobligation of $1.2 million to put these funds to better use.

   4. Work with OFEO staff to remove contracts from ERP with zero balances.

   5. Work with SBV staff to remove the $25 million of unliquidated contracts from the
      ERP financial system.

   6. Contact units when contractual performance periods are completed to determine
      whether unliquidated obligations are still needed.

Finally, we recommend that the CFO:

   7. Revise current year-end procedures to provide unit heads a listing of no-year
      contract balances sitting idle for 18 months or longer; and direct that they research
      the need for such balances, document the results, and notify CFO and contracting
      officers of unneeded obligations.

   8. Based on unit responses, certify in annual appropriations requests that obligated
      amounts are accurate and represent valid liabilities.

MANAGEMENT RESPONSE
Management officials provided formal written comments to our August 9, 2005, draft
report on August 18, 2005. All offices generally concurred with our analyses and
recommendations and identified actions taken or planned for each recommendation.
The Directors of OFEO and OCon indicated that 9 of the 17 contracts we reviewed have
already been closed-out and balances totaling $1.1 million have been deobligated. The
remaining eight contracts totaling $117,000 will be closed and monies deobligated by
September 30, 2005. The review and close-out of the remaining 66 contracts with
longstanding unliquidated obligations has been targeted for February 28, 2006.
Management also agreed to conduct coordinated reviews of other contracts we identified
that are recorded in the ERP financial system and deobligate unliquidated balances by
February 28, 2006. Additionally, Office of the Comptroller management will certify at
each year-end that obligated amounts are accurate and represent valid liabilities.




                                             6
The Director of OCon and the CFO partially concurred with our recommendations
regarding contacting units when contractual performance periods are completed and
providing them lists of no-year contract balances sitting idle for 18 months or longer.
Management officials indicated that it is the responsibility of unit heads and Contracting
Officers’ Technical Representatives (COTR) to monitor contractual obligations and
performance. However, they agreed to emphasize these monitoring responsibilities
during procurement and COTR training classes and include a reminder to review
unliquidated obligations in the annual Fiscal Year End Procedures instructions
memorandum that is issued by the OPMB each spring. The full text of management’s
comments is included in Appendix D.

OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s proposed actions are responsive to our recommendations and we consider
the recommendations resolved. We are pleased to see that OCon will initiate an effort to
determine if an ERP report, other than the ones currently available, could better assist
unit heads with their contract oversight responsibilities. However, while we agree that
unit heads and COTRs are primarily responsible for monitoring contract performance,
contracting officers (CO) share responsibility for monitoring the contracts and assisting
in the review and close-out of contracts with balances sitting idle for years. In accordance
with Federal Acquisition Regulation, Part 1.602-2, titled Responsibilities, CO’s are
responsible for ensuring performance of all necessary actions for effective contracting,
ensuring compliance with the terms of the contract, and safeguarding the interests of the
United States in its contractual relationships. Delegating these duties does not relinquish
the CO’s oversight responsibilities to ensure that contracts are completed and closed out
in a timely manner.




                                             7
APPENDIX A. SCOPE AND METHODOLOGY

To determine whether inactive obligations recorded in the Smithsonian Institution’s ERP
financial system represented valid financial liabilities, we obtained a June 2005 report on
contract balances from the ERP financial system. From this report we identified
82 facilities contracts, using federal no-year funds, with remaining balances that had no
voucher activity for 18 months or more. We conducted an aging analysis of expenditure
activity on the 82 contracts to determine the average length of time funds sat idle.

We used a May 2005 “Potential Fund Reconciliation” 7 schedule provided by OFEO to
identify what contracts OFEO had designated for closure. We determined that 16 of the
82 contracts were listed on this schedule and confirmed with responsible OFEO staff that
the remaining federal no-year capital funds were not needed on 14 of these contracts. We
identified an additional three contracts with idle funds that were not on the ERP report
but that OFEO confirmed should be closed out.

We interviewed OFEO staff to determine why periodic reviews of inactive obligations
were not performed and the reasons why funds sat idle for long periods of time. We also
interviewed OCon and OFEO staff to identify policies and procedures for closing
contracts in the ERP financial system. Finally, we contacted the CFO and Director,
OPMB, to determine whether they certify annually in the Appropriations requests to the
President that obligated amounts are accurate and represent valid liabilities.




7
    This schedule was generated by OFEO’s Project Tracking and Financial System.




                                                                  8
APPENDIX B. ACTIVE CONTRACTS IN THE ERP FINANCIAL
SYSTEM THAT HAD ZERO FUND BALANCES

     No        PO_ID          ENDBAL
      1    036KC10364 Total            -
      2    036KW10089 Total            -
      3    036KW10416 Total            -
      4    136KC10086 Total            -
      5    136KC10460 Total            -
      6    136KW10215 Total            -
      7    136KW10261 Total            -
      8    136KW10264 Total            -
      9    136KW10310 Total            -
      10   136KW10381 Total            -
      11   136KW10382 Total            -
      12   136KW10494 Total            -
      13   136KW10536 Total            -
      14   136KW10552 Total            -
      15   136KW10584 Total            -
      16   236KC10017 Total            -
      17   236KC10242 Total            -
      18   236KC10332 Total            -
      19   236KC10340 Total            -
      20   236KC10385 Total            -
      21   236KC10565 Total            -
      22   236KW10094 Total            -
      23   236KW10107 Total            -
      24   236KW10128 Total            -
      25   236KW10131 Total            -
      26   236KW10175 Total            -
      27   236KW10225 Total            -
      28   236KW10236 Total            -
      29   236KW10238 Total            -
      30   236KW10243 Total            -




                              9
APPENDIX B. ACTIVE CONTRACTS IN THE ERP FINANCIAL
SYSTEM THAT HAD ZERO FUND BALANCES

     No        PO_ID           ENDBAL
      31   236KW10245 Total             -
      32   236KW10273 Total             -
      33   236KW10303 Total             -
      34   236KW10306 Total             -
      35   236KW10327 Total             -
      36   236KW10338 Total             -
      37   236KW10345 Total             -
      38   236KW10350 Total             -
      39   236KW10359 Total             -
      40   236KW10361 Total             -
      41   236KW10378 Total             -
      42   236KW10404 Total             -
      43   236KW10426 Total             -
      44   236KW10428 Total             -
      45   236KW10432 Total             -
      46   236KW10435 Total             -
      47   236KW10436 Total             -
      48   236KW10448 Total             -
      49   236KW10455 Total             -
      50   236KW10459 Total             -
      51   236KW10464 Total             -
      52   236KW10470 Total             -
      53   236KW10490 Total             -
      54   236KW10494 Total             -
      55   236KW10501 Total             -
      56   236KW10513 Total             -
      57   236KW10516 Total             -
      58   236KW10543 Total             -
      59   236KW10550 Total             -
      60   236KW10556 Total             -




                              10
APPENDIX B. ACTIVE CONTRACTS IN THE ERP FINANCIAL
SYSTEM THAT HAD ZERO FUND BALANCES

     No        PO_ID           ENDBAL
      61   236KW10561 Total             -
      62   236KW10579 Total             -
      63   236KW10597 Total             -
      64   236KW10598 Total             -
      65   236KW10600 Total             -
      66   236KW10605 Total             -
      67   236KW10615 Total             -
      68   536KW10424 Total             -
      69   736KC10601 Total             -
      70   836KC10123 Total             -
      71   836KW10416 Total             -
      72   936KC10693 Total             -
      73   936KW10652 Total             -
      74   F03CC10028 Total             -
      75   F03CC10133 Total             -
      76   F03CC10223 Total             -
      77   F03CC10271 Total             -
      78   F03CC10276 Total             -
      79   F03CC10322 Total             -
      80   F03CC10435 Total             -
      81   F03CW10035 Total             -
      82   F03CW10036 Total             -
      83   F03CW10039 Total             -
      84   F03CW10099 Total             -
      85   F03CW10107 Total             -
      86   F03CW10112 Total             -
      87   F03CW10117 Total             -
      88   F03CW10118 Total             -
      89   F03CW10143 Total             -




                              11
APPENDIX B. ACTIVE CONTRACTS IN THE ERP FINANCIAL
SYSTEM THAT HAD ZERO FUND BALANCES

     No        PO_ID           ENDBAL
      90   F03CW10147 Total             -
      91   F03CW10150 Total             -
      92   F03CW10156 Total             -
      93   F03CW10157 Total             -
      94   F03CW10161 Total             -
      95   F03CW10169 Total             -
      96   F03CW10173 Total             -
      97   F03CW10174 Total             -
      98   F03CW10186 Total             -
      99   F03CW10196 Total             -
     100   F03CW10216 Total             -
     101   F03CW10269 Total             -
     102   F03CW10311 Total             -
     103   F03CW10338 Total             -
     104   F03CW10364 Total             -
     105   F03CW10374 Total             -
     106   F03CW10375 Total             -
     107   F03KC10215 Total             -




                              12
APPENDIX C. SBV CONTRACTS IN THE ERP FINANCIAL SYSTEM

    No        PO_ID                 ENDBAL
     1      036KC10127 Total    $     31,850
     2      036KC10139 Total        5,021,350
     3      036KC10163 Total          93,819
     4      036KC10272 Total          85,638
     5      036KC10295 Total         127,224
     6      036KC10296 Total         229,909
     7      036KC10307 Total         165,076
     8      036KC10347 Total          20,280
     9      036KC10366 Total          11,267
     10     036KC10380 Total         242,089
     11     036KC10430 Total          37,556
     12     036KC10501 Total         400,000
     13     036KC10611 Total         103,822
     14     336KC10473 Total          24,106
     15     436KC10111 Total          71,286
     16     436KC10114 Total           8,719
     17     436KC10194 Total           5,241
     18     436KC10195 Total          25,781
     19     436KC10201 Total           4,952
     20     436KC10308 Total          28,724
     21     436KC10403 Total           5,361
     22     436KC10410 Total           3,537
     23     436KC10436 Total           8,670
     24     436KC10454 Total           2,755
     25     436KC10464 Total           7,261
     26     436KC10512 Total          34,809
     27     436KC10515 Total          10,122
     28     436KC10530 Total           2,269
     29     436KC10575 Total           3,606
     30      436KT10012 Total         22,333
     31     436KW10078 Total          10,330
     32     436KW10079 Total          12,994




                                13
APPENDIX C. SBV CONTRACTS IN THE ERP FINANCIAL SYSTEM

    No        PO_ID              ENDBAL
     33     536KC10068 Total          12,779
     34     536KC10086 Total           2,108
     35     536KC10164 Total     1,502,934
     36     536KC10166 Total         821,869
     37     536KC10171 Total           4,286
     38     536KC10193 Total            664
     39     536KC10198 Total         521,330
     40     536KC10223 Total          93,867
     41     536KC10333 Total         103,686
     42     536KC10347 Total            120
     43     536KC10499 Total           2,930
     44     536KC10532 Total          22,472
     45     536KC10578 Total           3,795
     46      536KT10509 Total          2,509
     47     536KW10435 Total          23,478
     48     636KC10024 Total          52,600
     49     636KC10032 Total         754,448
     50     636KC10052 Total     2,213,291
     51     636KC10067 Total         290,618
     52     636KC10140 Total          64,973
     53     636KC10158 Total          65,711
     54     636KC10189 Total           1,919
     55     636KC10197 Total            812
     56     636KC10231 Total          33,987
     57     636KC10242 Total         163,496
     58     636KC10250 Total           3,846
     59     636KC10262 Total          10,762
     60     636KC10289 Total         118,416
     61     636KC10299 Total         532,070
     62     636KC10522 Total          49,979
     63     736KC10007 Total          48,484
     64     736KC10023 Total           7,783




                                14
APPENDIX C. SBV CONTRACTS IN THE ERP FINANCIAL SYSTEM

    No       PO_ID              ENDBAL
     65     736KC10135 Total           660
     66     736KC10140 Total         11,850
     67     736KC10161 Total          1,500
     68     736KC10343 Total         22,389
     69     736KC10345 Total          9,432
     70     736KC10377 Total         15,126
     71     736KC10434 Total         33,361
     72     736KC10495 Total    2,460,422
     73     836KC10005 Total         13,478
     74     836KC10050 Total          8,696
     75     836KC10181 Total          3,451
     76     836KC10192 Total         51,485
     77     836KC10193 Total         29,340
     78     836KC10224 Total           428
     79     836KC10225 Total         14,215
     80     836KC10241 Total           504
     81     836KC10243 Total         10,494
     82     836KC10263 Total         98,196
     83     836KC10264 Total         39,139
     84     836KC10280 Total    2,123,280
     85     836KC10286 Total        265,322
     86     836KC10297 Total         27,160
     87     836KC10363 Total          7,336
     88     836KC10562 Total         97,468
     89     936KC10073 Total        168,868
     90     936KC10103 Total         45,052
     91     936KC10107 Total         25,088
     92     936KC10111 Total         28,743
     93     936KC10136 Total         20,428
     94     936KC10190 Total         60,000
     95     936KC10236 Total         31,000
     96     936KC10247 Total        125,282




                               15
APPENDIX C. SBV CONTRACTS IN THE ERP FINANCIAL SYSTEM

    No       PO_ID               ENDBAL
     97     936KC10253 Total             0
     98     936KC10333 Total         94,268
     99     936KC10342 Total        111,662
    100     936KC10347 Total         65,303
    101     936KC10349 Total         15,429
    102     936KC10378 Total     2,305,777
    103     936KC10402 Total         89,778
    104     A36KC10420 Total         36,684
    105     B36KC00084 Total        145,200
    106     B36KC03043 Total        470,477
    107     C36KC00706 Total        126,888
    108     C36KC14897 Total     1,354,233
    109     D36KC00558 Total         41,797
    110     D36KC70595 Total         20,000
                 Grand Total   $25,121,447




                               16
APPENDIX D. MANAGEMENT COMMENTS




                      17
APPENDIX D. MANAGEMENT COMMENTS




                      18
APPENDIX D. MANAGEMENT COMMENTS




                      19
APPENDIX D. MANAGEMENT COMMENTS




                      20
